No. 20A- 128

In the
Supreme Court of the United States
JEFFERSON DUNN,
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
v.

Applicant,

WILLIE B. SMITH III,

Respondent.
To the Honorable Clarence Thomas, Associate Justice of the United States
Supreme Court and Circuit Justice for the Eleventh Circuit
CERTIFICATE OF SERVICE
I, Douglas R. McKusick, an attorney representing The Rutherford Institute as

amicus curiae, do hereby certify that, on February 11, 2021, as required by Rule
29 of the Rules of the Supreme Court of the United States, I served the enclosed
Motion for Leave to File Brief as Amicus Curiae and Brief of The Rutherford
Institute as Amicus Curiae in Support of Respondent by depositing a copy of the
same in the United States Mail, first-class postage, addressed to:
Lauren A. Simpson
State of Alabama
Office of the Attorney General
501 Washington Avenue
Montgomery, Alabama 36130-0152

Counsel for Applicant
1

Anand Agneswar
Arnold & Porter Kaye Scholer LLP
250 W. 55th Street
New York, NY 10019

Counsel for Respondent
In further compliance with Rule 29.3, on February 11, 2020, I served
the Motion for Leave to File Brief as Amicus Curiae and Brief
Rutherford

Institute

Respondent,

as

Amicus

Curiae

in

of The

Support

of

by sending it via email to: Lauren.Simpson@AlabamaAG.gov

(counsel for Applicant ) and A n a n d . A g n e s h w a r @ a r n o l d p o r t e r . c o m
( counsel for Respondent).
February 11, 2021
Respectfully submitted,

/s/ Douglas R. McKusick

Douglas R. McKusick
THE RUTHERFORD INSTITUTE
109 Deerwood Road
Charlottesville, VA 22911
(434) 978-3888
douglasm@rutherford.org

Counsel for Amicus Curiae

2

